TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Internal Controls for the Volunteer Income
                  Tax Assistance Grant Program Are in Place
                          but Could Be Strengthened



                                         August 19, 2009

                              Reference Number: 2009-40-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   August 19, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Internal Controls for the Volunteer Income Tax
                                 Assistance Grant Program Are in Place but Could Be Strengthened
                                 (Audit # 200940004)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively administering the Volunteer Income Tax Assistance (VITA) Grant Program
 to ensure it achieves the Program’s goals and objectives and ensures the Program grantees are
 properly managing the funds in compliance with grant terms and conditions and applicable laws
 and regulations. This audit was requested by the IRS and was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2009 Annual Audit Plan.

 Impact on the Taxpayer
 During the 2009 Filing Season,1 the Volunteer Program assisted taxpayers with filing almost
 3 million Federal income tax returns. The IRS granted 111 organizations VITA Grant Program
 funds during this period; 110 of these organizations had previously participated in the Volunteer
 Program. Internal controls for the newly established VITA Grant Program are in place but could
 be strengthened. This will help ensure the VITA Grant Program meets its goals and objectives
 and the IRS extends service to taxpayers in underserved populations in hard-to-reach areas.

 Synopsis
 In November 2008, the IRS announced it had awarded its first grant funds under the VITA Grant
 Program and in a short time period created a new program. For example, the IRS established
 criteria and a comprehensive selection process for grantees, drafted VITA Grant Program

 1
     The filing season is the period from January through mid-April when most individual income tax returns are filed.
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



internal guidelines and internal controls to use when administering the Program, processed
379 applications, and selected 111 applicants for the 2009 Filing Season. Also, when
establishing the VITA Grant Program, the IRS incorporated many of the corrective actions and
lessons learned from an April 2008 Treasury Inspector General for Tax Administration audit of
the Tax Counseling for the Elderly Program.2
Selection guidelines have been developed to help ensure the best applicants are selected, but
controls need to be improved. The IRS needs to ensure reviews are documented and guidelines
are timely updated as the VITA Grant Program evolves. There were established criteria and
written guidelines for selecting grantees and assigning grant/award amounts. However, there
was no support in the case files that all procedures had been followed.
Auditors visited 21 grantee offices and 60 tax return preparation sites. No significant issues were
identified during the visits. Nevertheless, internal controls could be strengthened. Specifically:
    •    Grantees were not aware that they are accountable for their sub-grantees’ or partners’
         funds.
    •    Grantees meeting Federal audit requirements did not submit required documentation.
    •    Controls over financial reporting need strengthening.
Additionally, a centralized management information system is needed to effectively monitor
grantees’ activities. We reported in Fiscal Year 2008 that the IRS had no central management
information system that captures the data collected on Tax Counseling for the Elderly Program
grantees. In addition, the current management information system used to capture Volunteer
Program activities is not always accurate and does not provide historical data. This is valuable
information needed to assess the success of each grantee and the overall success of the VITA
Grant Program.
The IRS developed a VITA Grant database to assist in capturing and compiling grant application
information. The VITA Grant database contains information from the application package and
ranking results. The IRS found mistakes in the database and it does not currently have the
resources to maintain and update it; therefore, it is no longer being used as originally intended.
Instead, the Grant Program Office is using various spreadsheets to track grant activities. We
estimate it would take one Full-Time Equivalent3 to fully design and program the database, but
less than one-half of a Full-Time Equivalent to maintain and update it annually. Grant Program



2
  Oversight and Administration of the Tax Counseling for the Elderly Program Need Improvement (Reference
Number 2008-40-112, dated April 29, 2008).
3
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff
hours.
                                                                                                                     2
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



Office officials stated they are planning to hire an employee with the necessary skills to complete
the database.
The 2009 Filing Season will establish the baseline for the VITA Grant Program’s performance
goals. Of the 111 organizations granted funds during this period, 110 had previously participated
in the Volunteer Program. Legislation requires that the grant money extend services to
underserved populations in hard-to-reach areas, both urban and nonurban, not just expand the
number of tax returns prepared by volunteers.
IRS officials stated they plan to gauge the success of the VITA Grant Program using two criteria:
Did the Program grow and did it meet its geographic and target populations? This will allow the
IRS to determine from year to year if the VITA Grant Program is meeting its goals. Because the
audit period ended shortly after the 2009 Filing Season, we were not able to assess the success of
the VITA Grant Program’s first year. The IRS was not able to provide analysis of the VITA
Grant recipients’ prior year VITA tax return preparation statistics. These data were to be used
during the award process to compare prior year tax return preparation data with the 2009 Filing
Season projections.

Recommendations
The Commissioner, Wage and Investment Division, should ensure all VITA Grant Program
guidelines are updated as processes change and include Return on Investment4 as an element in
the selection criteria. Additionally, the Eligibility Criteria Checklist should be revised to include
a check for the Single Audit submission. The Commissioner should ensure that funds are
distributed timely to grantees and grantees submit required documents and reports timely, all
financial reviews are timely and monitoring is documented, and resources are available to
program the VITA Grant database and update it annually.

Response
IRS management agreed with five of our six recommendations and indicated all corrective
actions have been completed. They agreed it is important to follow the established guidelines
and that proper documentation should be included in the VITA Grant Program files. They did
not agree that including Return on Investment as one of the elements in the selection criteria
would ensure that the best applicants are selected. Management’s complete response to the draft
report is included as Appendix V.




4
 In the context of this report, Return on Investment refers to the number of tax returns prepared with the grant funds
awarded.
                                                                                                                     3
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened




Office of Audit Comment
Our recommendation to include Return on Investment was made with the intent of having an
additional criterion that the IRS could use to compare the candidates applying for limited VITA
Grant Program funds. While the IRS uses multiple criteria to determine the best candidates to
participate in the VITA Grant Program, Return on Investment would be an indicator of a
candidate’s ability to provide the most value for the taxpayer dollars being invested.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                  4
                     Internal Controls for the Volunteer Income Tax Assistance Grant
                             Program Are in Place but Could Be Strengthened




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Selection Guidelines Have Been Developed to Help Ensure
          the Best Applicants Are Selected, but Controls Need to Be Improved ........Page 4
                    Recommendations 1 and 2: ..............................................Page 7

          Internal Controls Have Been Implemented to Monitor Grantees
          but Could Be Strengthened ...........................................................................Page 8
                    Recommendations 3 and 4: ..............................................Page 14

                    Recommendations 5 and 6: ..............................................Page 15

          The 2009 Filing Season Will Establish the Baseline for the Volunteer
          Income Tax Assistance Grant Program’s Performance Goals......................Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Cities and States Visited ......................................................Page 22
          Appendix V – Management’s Response to the Draft Report .......................Page 23
        Internal Controls for the Volunteer Income Tax Assistance Grant
                Program Are in Place but Could Be Strengthened




                        Abbreviations

IRS               Internal Revenue Service
SPEC              Stakeholder Partnerships, Education, and Communication
STARS             SPEC Taxpayer Assistance Reporting System
TCE               Tax Counseling for the Elderly
VITA              Volunteer Income Tax Assistance
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened




                                             Background

The Internal Revenue Service (IRS) Volunteer Income Tax Assistance (VITA) Program
originated in 1969 due to enactment of the Tax Reform Act of 19691 and an increased emphasis
on taxpayer education programs. The IRS has placed continual emphasis on expanding the
VITA Program through increased recruitment of social service, nonprofit, corporate, financial,
educational, and government organizations; involvement of the military on a national level; and
expansion of assistance provided to the limited-English-proficient community. During the
2009 Filing Season,2 almost 3 million tax returns were prepared by volunteers in the IRS
Volunteer Program.
In December 2007, Congress first appropriated funds to the IRS to establish and administer a
1-year matching grant program in consultation with
                                                           Who Can Apply For the VITA Grant
the Taxpayer Advocate Service. Under the VITA
                                                           Program
Grant Program, grantees are awarded matching grants
                                                           Applicants must be any one of the
to extend services to underserved populations in           following:
hard-to-reach areas, both urban and nonurban. The          • A private or public nonprofit
grants are to be used to increase the capacity to file tax      organization qualifying for tax
returns electronically and enhance training of                  exemption under the Internal
volunteers at VITA sites. The establishment of the              Revenue Code.
grant will enable the IRS to offer funding to assist       • A State or local government
organizations in sustaining its Volunteer Program.              agency.
                                                                      •    A regional, Statewide, or local
The IRS’ Volunteer Program includes VITA sites                             coalition with one lead organization
operated in partnership with the military and with                         that meets one of the eligibility
various community-based organizations, Tax                                 criteria stated above.
Counseling for the Elderly (TCE) Program sites,3 and                  Applicants must also provide matching
now VITA Grant Program sites. The 2009 Filing                         funds on a dollar-for-dollar basis.
Season was the first filing season the IRS granted                    Matching funds consist of cash,
                                                                      computer hardware and software, and
funds for the VITA Grant Program. It awarded almost                   third-party, in-kind contributions.
$8 million in matching grants to 111 organizations that               Funding from other Federal grants
planned to offer free tax preparation sites in the                    cannot be counted as matching funds.
2009 Filing Season. The organizations were located in
46 States and the District of Columbia.

1
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  The TCE Program provides free tax help to people age 60 and older. The IRS received more than $4 million as a
line item in the budget appropriation for the TCE Program. The total funds are distributed to the volunteer entities
(sponsors) for their expenses.
                                                                                                             Page 1
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



The Stakeholder Partnerships, Education, and Communication (SPEC) function is responsible for
                            providing oversight for the Volunteer Program, which includes
                            determining policies and procedures, developing products and
                            training material, and monitoring and managing Volunteer Program
                            activity. The SPEC function’s concept of operations includes
                            looking for opportunities to assist third parties to help taxpayers
understand and meet their tax obligations by promoting collaboration among tax practitioners,
commercial preparers, and community-based partners to support the Volunteer Program.
Figure 1 shows a breakdown of tax returns prepared by the Volunteer Program and the VITA
Grant Program for the 2009 Filing Season.
                            Figure 1: Number of Tax Returns Prepared
                                  During the 2009 Filing Season

                                                                 Volunteer Return                    VITA
                                 Total Tax Returns
                                                               Preparation Program                 Grantees

Tax Returns Prepared          Number         Percentage       Number        Percentage Number Percentage
                              Prepared        of Total        Prepared       of Total  Prepared of Total
Paper Tax Returns             33,954,000          27%           132,169               5%     23,345          3%

Electronic Tax Returns        89,997,000          73%         2,741,066             95%     680,662         97%

Total Tax Returns
                             123,951,000         100%         2,873,235            100%     704,007            100%
Prepared
Percentage of Tax                                            2% of Total Tax                25% of the Volunteer
Returns                                                      Returns                        Program
Source: IRS Weekly reports through the week ending April 18, 2009, and IRS SPEC function reports as of
April 5, 2009.

This review was performed at the IRS Wage and Investment Division SPEC function in
Atlanta, Georgia, during the period January through June 2009. In addition, in February and
March 2009, Treasury Inspector General for Tax Administration auditors visited 21 VITA Grant
Program grantee offices and 60 tax return preparation sites4 located in 15 States and the District
of Columbia. Appendix IV provides a list of the cities where the grantee offices and tax return
preparation sites were located. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our


4
 We visited 38 tax return preparation sites during this audit. Auditors conducting a separate audit of the Volunteer
Program visited the other 22 VITA Grant tax return preparation sites during that review. Ensuring the Quality
Assurance Processes Are Consistently Followed Remains a Significant Challenge for the
Volunteer Program (Audit # 200940002, draft report issued July 15, 2009).
                                                                                                             Page 2
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened



findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                 Internal Controls for the Volunteer Income Tax Assistance Grant
                         Program Are in Place but Could Be Strengthened




                                    Results of Review

Selection Guidelines Have Been Developed to Help Ensure the Best
Applicants Are Selected, but Controls Need to Be Improved
In November 2008, the IRS announced it had awarded its first grant funds under the VITA Grant
Program and the SPEC function in a short time period created a new program. For example, the
SPEC function:
    •   Established criteria for grantees.
    •   Recruited and hired grant office staff.
    •   Ensured employees attended grant training on how
        to administer Federal grant programs.
    •   Drafted VITA Grant Program internal guidelines
        and the VITA Grant Program Desk Guide for
        employees to use when administering the Program.
    •   Drafted and published the grantee application
        package, Volunteer Income Tax Assistance Grant
        Program: Program Overview and Application
        Package (Publication 4671).
    •   Recruited, selected, and trained a Ranking Review
        Panel of 36 members representing each of the
        4 SPEC function geographic areas nationwide to select the grantees.
    •   Advertised the VITA Grant Program and solicited grantees.
    •   Processed 379 applications and selected 111 applicants for the 2009 Filing Season.
    •   Established a financial quality review process.
Additionally, when establishing the VITA Grant Program, the IRS incorporated many of the
corrective actions and lessons learned from an April 2008 Treasury Inspector General for Tax
Administration audit of the TCE Program.5 We reported that improvements were needed to
ensure the most qualified applicants are selected and funds are spent appropriately for the

5
 Oversight and Administration of the Tax Counseling for the Elderly Program Need Improvement (Reference
Number 2008-40-112, dated April 29, 2008).
                                                                                                      Page 4
                    Internal Controls for the Volunteer Income Tax Assistance Grant
                            Program Are in Place but Could Be Strengthened



TCE Program. The IRS also needed to obtain better management information and performance
goals and measures to effectively oversee and evaluate the TCE Program.

A comprehensive selection process has been implemented
A review of the selection process guidelines and testing of 51 application packages presented no
                                         significant issues. Clear guidelines were established for
 Acceptance into the VITA Grant          accepting applications, establishing application
 Program will be based on the            packages, and logging in applicants. Foremost, a
 following evaluative criteria:          database was developed to control the applications.
    1. Strength of Program standards
       (40 Points).                               Applications that pass a screening process6 and include
    2. Geographic coverage and extent of          all required items in the application package undergo a
       coverage for the underserved               two-tiered evaluation process: a technical evaluation
       (40 Points).                               and a secondary evaluation. The technical evaluation
    3. Prior performance in the Volunteer         entails the 36 member Ranking Review Panel’s scoring
       Program (40 Points).                       the applicants based on 7 criteria. There is no
    4. Ability to partner or collaborate with     minimum score applicants must meet.
       multiple organizations (20 Points).
    5. Quality of organization’s         The secondary evaluation includes the Grant Program
       sustainability and growth strategyOffice’s general review of the entire application and the
       (10 Points).                      applicant’s program plan to ensure that the applicant
                                         has sufficient matching funds and meets VITA Grant
    6. Quality control process (30 Points).
    7. Infrastructure to measure program Program requirements. It is at this time that the Grant
       effectiveness (20 Points).        Program Office considers the ability of the applicant to
                                         provide widespread geographic coverage, the specific
underserved population each applicant is targeting, and the number of taxpayers who will be
served by the applicant. Lastly, SPEC function executives make the final decisions on the
awards.
A review of 51 of 379 application packages to test the technical evaluation process showed only
3 packages (6 percent) had questionable scoring results.
      •   One applicant scored 199 on the ranking questionnaire, but the final score was 179.
          There was no explanation of why the score was reduced.
      •   A second applicant’s scoring had widespread inconsistencies between the elements. For
          example, there was a reduction in points when information was not provided for some
          elements but not for others.


6
 The screening process ensures applicants are a qualified private or public nonprofit organization; State or local
government agency; or a regional, Statewide, or local coalition with one lead organization that meets one of the
aforementioned eligibility criteria.
                                                                                                              Page 5
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened



   •    A third applicant was selected because it planned to serve a specific population, when in
        fact it did not. When we questioned grantee officials about this during our visit, they
        advised that they had checked the wrong box on the application but corrected the error on
        the revised budget that was submitted after acceptance into the VITA Grant Program.
   •    Fourteen (27 percent) of 51 applicants received lower scores because reviewers said the
        information was not addressed even though the information was in the application
        package. For example, when completing the ranking panel questionnaire, reviewers
        commented that the requested data were not provided. However, during our review of
        the application packages for these 14 applicants, we believed the information was
        contained in the application.

Improvements are needed to ensure required reviews are documented
A test of 21 case files showed the secondary reviews included the key elements required to be
considered during the selection process. Consideration was given for the ability of the applicant
to provide widespread geographic coverage and to serve an underserved segment of the
population. Also considered was the number of taxpayers who were expected to be served by
the applicant.
    •   The Chief Grant Program Office Review Process sheet contains 10 criteria, including the
        primary and secondary focus of the applicant, census data, number of existing and new
        sites, and number of expected tax returns to be prepared. These were completed by
        various Grant Program Office staff, but there was no support in the case file that the
        Grant Program Office Chief reviewed this information.
    •   The Grant Application Executive Summary includes space for a summary of the Chief’s
        review, the amount of the award requested and recommended, and a few words on the
        reason the award is being recommended. It also provides a section called “Executive
        Decision” for the SPEC function executive to document the review and decision.
Neither summary sheet contained information on Return on Investment (i.e., the number of tax
returns prepared with the grant funds awarded) nor the average cost of tax returns prepared.
Grant Program Office officials explained they did not use Return on Investment as a selection
criteria. Instead, they applied a fixed cost per return to the expected number of returns to
calculate the amount of the grant awards. Return on Investment may vary depending on the
target population and geographic area being served, but using a standard Return on Investment
within segments would help determine which applicant is providing the most value to the IRS.
Additionally, none of the 21 case files reviewed documented that executives had reviewed the
information for final selection into the VITA Grant Program. The SPEC function’s Director of
Headquarters Operations is to conduct a final review of all applications recommended for
funding and is the IRS official who makes the final decision when award amounts are less
than $100,000. The Director of the SPEC function is to review grant applications and supporting
                                                                                           Page 6
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened



documents for proposed awards where award amounts exceed $100,000. The Director of SPEC
is the final approver on all grant applications unless delegated to other IRS officials.
The SPEC function Director stated that, during the selection process, the Grant Program Office
realized the volume of applicants precluded executives from signing off on each case file.
Instead, executives reviewed a summary spreadsheet with data for the selected grantees and were
briefed on the methodology for selecting the 111 applicants for awards. The new guidelines are
currently being revised, but were not provided to us during the audit.
The IRS needs to ensure reviews are documented and guidelines are timely updated as the
VITA Grant Program evolves. There were established criteria and written guidelines for
selecting grantees and assigning grant/award amounts. However, there was no support in the
case files that all procedures had been followed. This reduces the assurance that the best
applicants were selected for the VITA Grant Program and the funds were appropriately allocated.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Ensure all VITA Grant Program guidelines are updated as processes
change, all guidelines are followed, and all reviews, approvals, and decisions are documented.
       Management’s Response: IRS management agreed with this recommendation
       indicating they have developed additional guidelines and made significant updates to
       existing guidelines and processes.
Recommendation 2: Include Return on Investment as one of the elements to be considered in
the selection criteria. This would provide an indicator common to all grantees that can be used
not only in the selection process but could also be used to evaluate performance.
       Management’s Response: IRS management did not agree with this recommendation
       stating that Return on Investment would not contain an accurate measure of performance
       or be a consistent or fair application for Grant applicants who have not previously
       participated in the VITA Program. Using a standard Return on Investment for various
       target populations would be difficult to apply or defend if challenged. Finally, IRS
       management stated that the current evaluative criteria currently being used provides
       proper focus on the multiple objectives of the VITA Grant Program as defined in the
       statutory language.
       Office of Audit Comment: Our recommendation was made with the intent of having
       an additional criterion that the IRS could use to compare the candidates applying for
       limited VITA Grant Program funds. While the IRS uses multiple criteria to determine
       the best candidates to participate in the VITA Grant Program, Return on Investment


                                                                                          Page 7
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



         would be an indicator of a candidate’s ability to provide the most value for the taxpayer
         dollars being invested.

Internal Controls Have Been Implemented to Monitor Grantees but
Could Be Strengthened
In response to the Treasury Inspector General for Tax Administration’s prior report, the
SPEC function established a financial review process that includes an annual review of a
statistical sample of grantees as well as onsite financial reviews of grantees.
    •    The SPEC function’s Oversight and Analysis unit
         will conduct the annual statistical reviews.
                                                                              The Grant Program Office
    •    The Grant Program Office will conduct onsite                      guidelines state that monitoring
         financial reviews. These reviews were not                            is to begin when the grant
                                                                            opportunity is announced and
         scheduled to begin until mid-April 2009 because                   continues throughout the grant
         the Grant Program Office did not want to make                                   cycle.
         visits during the filing season when the grantees
         were busy with taxpayers.
Additionally, each grantee is assigned a Grant Program Office analyst. The analysts are to use a
checklist to monitor grantees’ progress monthly throughout the filing season for issues such as
access to funds, tax returns prepared, and number of sites submitting returns. Completing the
checklist will help identify grant recipients that may require follow up by the analyst, Territory,
Area,7 or other Grant Program Office staff.

Auditors visited a sample of 21 grantees and identified no significant issues
Auditors visited 21 grantee offices and 60 tax return preparation sites.8 No significant issues
were identified during the visits.
    •    Volunteers were certified to prepare tax returns and were following IRS quality review
         guidelines.
    •    Grantees were adequately publicizing and/or marketing their programs.
    •    Grantees were able to review their program accomplishments.



7
 The SPEC function is divided into 4 Areas led by Directors with 34 Territory Offices led by managers.
8
 We visited 38 tax return preparation sites during this audit. Auditors conducting a separate audit of the Volunteer
Program visited the other 22 VITA Grant tax return preparation sites during that review. Ensuring the Quality
Assurance Processes Are Consistently Followed Remains a Significant Challenge for the
Volunteer Program (Audit # 200940002, draft report issued July 15, 2009).
                                                                                                             Page 8
                 Internal Controls for the Volunteer Income Tax Assistance Grant
                         Program Are in Place but Could Be Strengthened



    •   Grant funds were validated and grantees were adequately accounting for grant funds. If
        the grantee had not received its grant funds from the IRS, we ensured the grantee could
        account for the matching funds it had used to receive the grant.
    •   Expenditures were supported and no unauthorized expenditures were identified.
        Expenses appeared reasonable for ordinary operating expenses and most were
        comparable to the planned expenditures.
Although no significant issues were identified during the visits to grantees’ offices, controls
could be strengthened to ensure accountability of all funds, that all funds are issued to the
grantees timely, reports are submitted timely, and unexpended funds are accounted for.
Additionally, monitoring activities should be more timely and adequately documented.
An integral component of every organization’s management should be a system of internal
controls that provides reasonable assurance of the effectiveness and efficiency of operations, the
reliability of financial reporting, and compliance with applicable laws and regulations. Internal
controls should provide reasonable assurance that the objectives of the VITA Grant Program are
being met and that grantees are using funds according to the law and IRS regulations.
Grantees were not aware that they are accountable for their sub-grantees’ or partners’
funds
Grantees may partner with other volunteer organizations, referred to as a coalition. When this
happens, the volunteer organization that has been awarded the grant must also account for the
funds shared with the sub-grantee or partner.
Six (46 percent) of the 13 grant recipients that were members of a coalition did not provide
oversight of the partner organizations that received a portion of the grant funds. A lack of
oversight may allow funds to be spent improperly. One of the six suggested that the grant
application instructions contain more information for budget preparation when multiple
organizations are involved. We discussed this with the Grant Program Office officials and they
stated they are revising the Publication 4671 to include more information on the responsibilities
of the lead organization.
Grantees meeting audit requirements did not submit required documentation
If grantees spend more than $500,000 a year in total Federal Government awards, they are
required to arrange for an audit by an independent auditor, in accordance with the Government
Auditing Standards developed by the Comptroller General of the United States,9 and provide a
copy of the audit report to the IRS. If the grantee does not meet the requirement, the IRS still has


9
  Audit requirements applicable to grant recipients are described in Office of Management and Budget
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, 62 FR 35278-35302
(June 30, 1997).
                                                                                                       Page 9
                Internal Controls for the Volunteer Income Tax Assistance Grant
                        Program Are in Place but Could Be Strengthened



the authority to audit expenditures of VITA Grant Program funds, regardless of the dollar
amount of Federal Government funding received by the grantee.
Two (10 percent) of 21 grantees sampled were
required to have a Single Audit conducted.                  If grantees spend more than $500,000 a
Neither grantee’s case file contained the required         year in total Federal Government awards,
copy of the Single Audit. The Application                  they are required to arrange for an audit–
Package Submission Checklist in Publication 4671                  2 of the 21 grantees met this
                                                                           requirement.
does not include a reminder for grantees to submit
the Single Audit if they expend more than
$500,000 in Federal awards nor does the eligibility
checklist include a reminder for the Grant Program Office analyst to check for the Single Audit
submission. The Single Audit would alert the Grant Program Office to internal control findings
identified by the independent auditor. Grant Program Office officials stated they are revising the
eligibility checklist for the next grant period to ensure the Single Audits are obtained, when
required.
Controls over financial reporting need strengthening
•   Controls should be strengthened to ensure all required documents are received before funds
    are authorized. Seven (33 percent) of 21 grantees were authorized to withdraw funds before
    all required documents were received. Funds are only to be released after the grantee
    submits a budget based on the revised award amount. The award letter to grant recipients
    should be revised to specifically state that a revised budget narrative should accompany the
    revised VITA Grant Program Budget Plan (Form 13977).
•   Procedures have been established for grantees to submit interim and final reports to the IRS;
    however, not all reports were received timely and the interim report is not due until April 30.
    This may be too late for the grantee to make corrections since the filing season, when most
    tax returns are filed, is over in mid-April. Only about 60 percent of the 2009 Filing Season
    VITA Grant Program recipients had submitted their interim reports by the April 30, 2009,
    deadline. Grant Program Office officials stated that the interim reports are used to determine
    if the grant recipient will spend all awarded funds. They attributed some of the delay to not
    receiving the interim reports from the mail room until after April 30, because the analysts
    were in training at the time the submissions were due.
•   Procedures need to be documented to identify, reconcile, and redistribute unspent funds.
    Only Publication 4671 notes how these funds are to be handled and it does not specifically
    explain when and where the funds should be returned. Accounts that are left open burden the




                                                                                             Page 10
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



     IRS after the end of the grant period because the IRS continues to pay maintenance fees on
     accounts that are not closed timely.10
Additionally, the grant funds were not available until after January 13, 2009. This delay was
caused because the agreement between the IRS and the United States Department of Health and
Human Services regarding the use of the Payment Management System11 was not completed
until January 13, 2009. However, as of June 4, 2009, the Payment Management System does not
have any records to show that one grantee has been registered for the VITA Grant Program.
Grant Program Office officials stated they have been working with this grantee to correct the
problem.
This is the first year for the VITA Grant Program; many new procedures and controls have been
implemented or are still being implemented. Nonetheless, many of the grantees have been
recipients of other grants and understand that obligations and regulations accompany the grant
funds. The IRS needs to ensure that employees are adhering to financial and operational controls
that are in place and that the objectives of the VITA Grant Program are being met and grantees
are using funds according to the law and IRS regulations.
Monitoring needs to be better documented and financial reviews need to be more timely
Monitoring of the grantees occurs for operational and financial purposes and is conducted by
several different SPEC function offices. Production data and grant fund withdrawals should be
reviewed by the Grant Program Office analysts on a monthly basis. Financial reviews should be
conducted by the SPEC function’s Oversight and Analysis staff as well as the Grant Program
Office analysts. A select number of grantees should be reviewed by the Territory or Area SPEC
function staff. Finally, the SPEC function also conducts quality reviews of tax returns prepared
at its VITA sites, including grant recipients. These quality reviews do not cover financial aspects
of the grantee’s operation.
The case files for only 11 (52 percent) of the 21 grantees sampled showed any monitoring
activity, such as production or activity reports or notations in the activity log, by the Grant
Program Office analysts. Guidelines state that analysts should use a Grant Program Monitoring
Checklist to document monthly whether the grant recipient’s performance reflects the projected
budget and program plan submitted with the application; however, this guideline was not being
followed. Grant Program Office officials stated that they are still finalizing a monitoring tool
that collects the needed data to properly monitor the grantees.


10
   There are 28 TCE Program accounts totaling $204,429 for Fiscal Years 2002-2008 that have yet to be closed.
Grant Program Office officials stated some of the open accounts are due to the fact that they are unable to locate a
grant recipient to have them file the final reports in the Payment Management System. They stated that they do not
have the authority to close the open accounts without the final reports.
11
   Grant funds are maintained and distributed through the United States Department of Health and Human Services
Payment Management System. The IRS enters the grantees and their award amounts into this System. Grantees
draw funds directly from it via direct deposit.
                                                                                                           Page 11
                 Internal Controls for the Volunteer Income Tax Assistance Grant
                         Program Are in Place but Could Be Strengthened



Auditors were advised that analysts had obtained activity reports throughout the filing season;
however, the reports were generally not saved in the case files. Grant Program Office officials
later stated this was not the case. Instead, they used a spreadsheet to monitor the progress of the
grantees. The spreadsheet data were grouped by analyst and placed in a public folder. Analysts
were instructed to contact the grantees only if their production data indicated the returns
submitted were more than 50 percent below the grantee’s goal. Grant Office management does
not see the value in documenting monitoring activities if there are no problems. We were not
provided with this spreadsheet during the audit. However, as of April 5, 2009, only
32 (29 percent) of the 111 grantees had met their filing goals according to other data sources.
While the filing season ends April 15, 2009, the grant period does not end until June 30, 2009.
Further, no documentation was provided to show that any visits to the grantees had been
completed by the Oversight and Analysis staff, Grant Program Office analysts, or Area SPEC
function staff during the filing season. When asked for results of any reviews of the grantees
conducted by the IRS during the filing season, only the results of the tax return quality reviews
conducted by the SPEC function were provided. The Grant Program Office did not make site
visits during the filing season because it believed grantees would be too busy with tax return
preparation.
Draft guidelines state that Area and Territory personnel are responsible for site visits, but there is
no requirement for Area Directors or Territory Managers to submit monthly status reports or
updates on the sites they contact or visit. Grant Program Office officials stated that for them to
know a site has been visited, the Territory or Area SPEC function staff would have to email or
call the Grant Program Office analyst and explain that potential problems exist. Knowing which
grantees have been visited and for what purpose (quality, financial, or assistance) would allow
the Grant Program Office to target its limited resources to reviewing the grantees with the most
serious problems.
Timely monitoring, particularly in the early implementation of a program, is essential not only to
ensure grantees are following grant guidelines but to determine where improvements or
enhancements might be made to the program so that the goals and objectives of the grantees and
the VITA Grant Program are met.

A centralized management information system is needed to effectively monitor
grantees’ activities
We reported in Fiscal Year 2008 that the SPEC function had no central management information
system that captures the data collected on TCE Program grantees.12 In addition, the current
management information system, the SPEC Taxpayer Assistance Reporting System (STARS),
used to capture Volunteer Program activities is not always accurate and does not provide

12
 Oversight and Administration of the Tax Counseling for the Elderly Program Need Improvement (Reference
Number 2008-40-112, dated April 29, 2008).
                                                                                                   Page 12
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened



historical data. This is valuable information needed to assess the success of each grantee and the
overall success of the VITA Grant Program.
The STARS contains the profiles and contact        Our April 2008 report recommended and the
information for Volunteer Program participants     IRS agreed to develop management
and site information. It also captures the         information that could capture grantees’
number of taxpayer contacts for outreach           historical and current year information and
                                                   include information about the grantee such
activities, along with information about the       as
activity conducted and the number of
volunteers at each site, and controls the          1. The number of sites and geographic
                                                      dispersion.
computers and software used to prepare the tax
                                                   2. Grantee awards requested, made, and
returns. The STARS was not designed to                spent.
capture those data unique to the grant programs    3. Grant funds distributed and returned.
(e.g., award amounts, expectations, funds
                                                   4. Grantee expectations and planned activity.
distributions, expenses, or the number of tax
                                                   5. Grantee expenses related to the Program.
returns prepared for elderly taxpayers).
                                                   6. Actual tax returns prepared by the grantee
Additionally, the SPEC function continues to          for all taxpayers and elderly taxpayers.
have concerns that the STARS is not accurate.
Finally, the STARS does not maintain
historical information. Therefore, the IRS does not have records to gauge the progress of the
VITA Grant Program or the historical performance of the grantees. For example, based on the
application packages, 110 of the 111 VITA Grant recipients previously participated in the
Volunteer Program. This information is not available in the STARS and it cannot be queried to
determine which grantees participated in a prior year and how many tax returns they prepared.
This can be accomplished only if data have been extracted and maintained outside the STARS.
The SPEC function developed a VITA Grant database to assist in capturing and compiling
the grant application information
The VITA Grant database contains information from the application package and ranking results.
The information on the various forms is compiled into reports so that the Grant Program Office
can see what funds are requested, the expected expenditures, the targeted populations, and the
performance projections. This information then should be compared to the actual performance
data for returns prepared and sites established to track the progress of the grant recipients. The
interim and year end budget reports are to be entered into the database and used to assist in
monitoring the actual expenditures of the
grantees and will allow a comparison to the
final budget plan submitted by the recipient.       Including the STARS, the SPEC function uses
                                                      five nonintegrated systems to collect
Initially, the SPEC function used an                information on each grantee to determine
employee detailed to the Grant Program            whether the grantee’s performance reflects the
Office to develop the database, with                   projected budget and program plan.


                                                                                           Page 13
                  Internal Controls for the Volunteer Income Tax Assistance Grant
                          Program Are in Place but Could Be Strengthened



assistance from another SPEC function employee. Unfortunately, that employee was no longer
available to work on the database and the assisting SPEC function employee could not devote the
time needed to complete the database. The SPEC function found errors in the database when it
attempted to determine the number of returns each grantee planned to deliver. The database only
provided the numbers from the original plan and not the revised numbers based on the reduced
amount of the award. Because of the mistakes found and because the SPEC function does not
currently have the resources to maintain and update the database, it is no longer being used as
originally intended. Instead, the Grant Program Office is using various spreadsheets to track
grant activities. We estimate it would take one Full-Time Equivalent13 to fully design and
program the database, but less than one-half of a Full-Time Equivalent to maintain and update it
annually. Grant Program Office officials stated they are planning to hire an employee with the
necessary skills to complete the database.
Management information is essential to control operations and make decisions and should be an
integral component of a system of internal controls. The IRS needs to have a centralized
management information system to capture and control grantees’ current year and historical
activities, including fund withdrawals, expenses reported, and tax return preparation assistance
data. This information is essential to compare grantee and IRS expectations to accomplishments,
especially since the IRS expects its Volunteer Program to continue to play an increasing role in
the IRS’ tax return preparation programs.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Revise the Eligibility Criteria Checklist to include a check for the
Single Audit submission.
         Management’s Response: IRS management agreed with this recommendation. The
         Single Audit eligibility check has been included in the eligibility checklist and also in
         Publication 4671.
Recommendation 4: Ensure funds are distributed timely to grantees and grantees submit
required documents and reports timely.
         Management’s Response: IRS management agreed with this recommendation
         stating they have ensured funds are distributed timely to grantees and grantees submit
         required documents and reports timely.



13
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff
hours.
                                                                                                           Page 14
                    Internal Controls for the Volunteer Income Tax Assistance Grant
                            Program Are in Place but Could Be Strengthened



Recommendation 5: Ensure all financial reviews are timely and monitoring is documented.
           Management’s Response: IRS management agreed with this recommendation
           stating that analyst visits were documented in the Grant file along with a copy of the final
           report. Analysts continued to monitor production as the filing season and Grant cycle
           progressed and requested information or explanation when warranted.
Recommendation 6: Ensure resources are available to program the VITA Grant database and
update it annually.
           Management’s Response: IRS management agreed with this recommendation
           stating they have ensured resources are available to program the VITA Grant database
           and to update it annually.

The 2009 Filing Season Will Establish the Baseline for the Volunteer
Income Tax Assistance Grant Program’s Performance Goals
Of the 111 organizations granted funds this period, 110 had previously participated in the
Volunteer Program. Legislation requires that the grant money extend services to underserved
populations and hard-to-reach areas, both urban and nonurban, not just expand the number of tax
returns prepared by volunteers. SPEC function officials stated they plan to gauge the success of
the VITA Grant Program using two criteria: Did the Program grow and did it meet its
geographic and target populations, which include taxpayers: 14
       •   With disabilities.
       •   Who speak limited English.
       •   Who are low income.
       •   Who are elderly (over 60 years of age).
This will allow the IRS to determine from year to year if the VITA Grant Program is meeting its
goals.
Because the audit period ended shortly after the 2009 Filing Season, we were not able to assess
the success of the VITA Grant Program’s first year. The IRS was not able to provide analysis of
the VITA Grant recipients’ prior year VITA tax return preparation statistics. These data were to
be used during the award process to compare prior year tax return preparation data with the
2009 Filing Season projections. Grant Program Office officials stated they did not have time to
collect this data and conduct the analysis. All but one of the VITA Grant recipients previously
participated in the Volunteer Program.


14
     They do not have a means to capture the number of taxpayers who are Native American.

                                                                                               Page 15
                    Internal Controls for the Volunteer Income Tax Assistance Grant
                            Program Are in Place but Could Be Strengthened



The Volunteer Program as a whole prepared fewer tax returns this filing season than in the prior
one. However, as shown in Figure 2, the IRS and the Volunteer Program processed about
10 percent fewer tax returns in the 2009 Filing Season than in the 2008 Filing Season. This is
attributed to the rise in tax returns prepared in the 2008 Filing Season related to the Economic
Stimulus Act of 2008.15 Stimulus-only tax returns were submitted on paper.
                             Figure 2: Results for the Volunteer Program
                                for the 2008 and 2009 Filing Seasons
                                                   2008 Filing         2009 Filing        Percentage
             Type of Tax Return
                                                    Season              Season             Change
             Total Individual Tax Returns          136,941,000         123,951,000          -9.5%
             Volunteer Return Preparation             3,178,591           2,873,235         -9.6%
             Volunteer E-File (%)                         90.7%              95.4%           5.2%
           Source: IRS Weekly Filing Season Reports for the week ending April 18, 2009.

Because of the influx of Tax Year 2008 stimulus returns, the 2009 Filing Season should be the
base year in which to begin measuring filing results and establish a baseline in which the IRS can
measure the performance of the VITA Grant Program.
The Government Performance and Results Act of 199316 states that agencies should establish
general goals and objectives, including those that are outcome-related, for the major functions
and operations of the agency. The Volunteer Program plays an increasingly important role in
achieving the IRS’ goal of improving taxpayer service and facilitating participation in the tax
system. The SPEC function will need to establish the VITA Grant Program’s overall geographic
and target population performance measures and goals. It will also need to establish
performance measures for the individual grantees to determine if they meet their plans and goals.




15
     Pub. L. No. 110-185, 122 Stat. 613.
16
     Pub. L. No. 103-62, 107 Stat. 285.




                                                                                                       Page 16
               Internal Controls for the Volunteer Income Tax Assistance Grant
                       Program Are in Place but Could Be Strengthened



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is effectively
administering the VITA Grant Program to ensure it achieves the Program’s goals and objectives
and ensures the Program grantees are properly managing the funds in compliance with grant
terms and conditions and applicable laws and regulations. To accomplish this objective, we:
I.     Determined if the IRS has established adequate procedures and controls to ensure
       grantees meet VITA Grant Program requirements, goals, and objectives.
       A. Determined the methodology used to solicit applications from eligible agencies and
          organizations for the VITA Grant Program.
       B. Determined controls over the application process and determined how applicants are
          selected to participate in the VITA Grant Program.
          1. Reviewed a judgmental sample of 21 applicants selected to receive the VITA
             Grant and 30 applicants from the remaining 268 applicants that were not selected
             to receive the VITA Grant to determine if the eligibility criteria and scoring of
             applications was consistently applied by the SPEC function. See Step IV.B.1 for
             a description of the sampling process for the 21 grant recipients. The 30
             non-selected applicants were judgmentally selected using an interval sampling
             methodology.
          2. Reviewed the sample of application packages for grant recipients and a
             judgmental sample of applicants not selected to receive grant funds.
       C. Determined the means that the IRS will use to measure achievement of the VITA
          Grant Program goals and objectives.
II.    Interviewed the Department of Health and Human Services Payment Support Center
       employees responsible for the VITA Grant Program and determined if guidelines or
       procedures were updated or revised to include the Program.
III.   Determined if the IRS has established adequate financial controls to ensure all funds are
       safeguarded and expended according to the applicable laws and regulations.
       A. Determined if the grantee submitted a revised operating/financial plan when the grant
          amount awarded was different from the amount requested, or if any significant event
          was timely submitted that would affect the revised plans.



                                                                                          Page 17
                 Internal Controls for the Volunteer Income Tax Assistance Grant
                         Program Are in Place but Could Be Strengthened



        B. Determined if procedures have been established to ensure all required actions have
           been taken and documentation submitted prior to the establishment of grantee
           Payment Management System accounts.
        C. Determined if the IRS has effective procedures to review interim and final reports of
           financial information submitted by the VITA Grant Program grantees.
        D. Determined if the IRS has effective procedures in place requiring validation of the
           financial information reported by VITA Grant Program grantees during site visits.
        E. Determined if the IRS has adequate procedures in place if a grantee does not or will
           not use all the awarded funds.
IV.     Determined if the VITA Grant Program grantees are properly managing grant funds.
        A. Reviewed the applicable legislation, Office of Management and Budget policies, and
           IRS procedures to determine the allowability and allocability of expenses.
        B. Visited a sample of VITA sites to determine if grantees have adequate controls to
           ensure grant funds are expended according to VITA Grant Program guidelines and
           meet legal requirements.
            1. Selected a judgmental sample of 21 out of 111 grantees selected to receive the
               VITA Grant funds. Based on recommendations of the contract statistician that we
               select those grant recipients receiving the largest awards, we selected a
               judgmental sample of 21 applicants that received a VITA Grant award of $75,000
               or more. To conserve resources, we also included any additional grantees located
               in the same city as one of the sample recipients. We also visited a sample of sites
               for each of the 21 grantees selected. We attempted to review two sites per
               grantee; however, some grantees had only one site open during the time of our
               visit. Therefore, we were not able to visit two sites for every grantee. We visited
               38 tax return preparation sites during this audit. Auditors conducting a separate
               audit of the Volunteer Program visited another 22 VITA Grant tax return
               preparation sites during that review.1
            2. For the sample selected, reviewed the Grant Agreements and determined the
               maximum amount of funding available for reimbursement and administrative
               purposes, verified the grantees’ matching funds, conducted interviews to
               determine how the VITA Grant Program grantees ensure expenses are only

1
 Ensuring the Quality Assurance Processes Are Consistently Followed Remains a Significant Challenge for the
Volunteer Program (Audit # 200940002, draft report issued July 15, 2009).




                                                                                                      Page 18
            Internal Controls for the Volunteer Income Tax Assistance Grant
                    Program Are in Place but Could Be Strengthened



            allocated to qualifying activities, and if the grantee selected for the sample
            receives grants or funds from other Federal programs and, if so, how the funds
            and expenses were allocated for reporting purposes.
V.   Determined how the SPEC function ensured the VITA Grant Program grantees are
     reaching the target population and providing the appropriate services to meet program
     goals and objectives.




                                                                                      Page 19
              Internal Controls for the Volunteer Income Tax Assistance Grant
                      Program Are in Place but Could Be Strengthened



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Sharon Shepherd, Lead Auditor
Lynn Faulkner, Senior Auditor
Jerome Antoine, Auditor
Jerry Douglas, Auditor




                                                                                    Page 20
              Internal Controls for the Volunteer Income Tax Assistance Grant
                      Program Are in Place but Could Be Strengthened



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
National Taxpayer Advocate TA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 21
          Internal Controls for the Volunteer Income Tax Assistance Grant
                  Program Are in Place but Could Be Strengthened



                                                                    Appendix IV

                        Cities and States Visited

•   Birmingham, Alabama               •   Minneapolis, Minnesota

•   Guntersville, Alabama             •   Raleigh, North Carolina

•   Tuscaloosa, Alabama               •   Tulsa, Oklahoma

•   Tucson, Arizona                   •   Philadelphia, Pennsylvania

•   Hartford, Connecticut             •   Houston, Texas

•   Wilmington, Delaware              •   San Antonio, Texas

•   Chicago, Illinois                 •   Albany, New York

•   Indianapolis, Indiana             •   Buffalo, New York

•   Des Moines, Iowa                  •   Seattle, Washington

•   Boston, Massachusetts             •   Washington, District of Columbia

•   Bloomingdale, Minnesota




                                                                             Page 22
   Internal Controls for the Volunteer Income Tax Assistance Grant
           Program Are in Place but Could Be Strengthened



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 23
Internal Controls for the Volunteer Income Tax Assistance Grant
        Program Are in Place but Could Be Strengthened




                                                         Page 24
Internal Controls for the Volunteer Income Tax Assistance Grant
        Program Are in Place but Could Be Strengthened




                                                         Page 25
Internal Controls for the Volunteer Income Tax Assistance Grant
        Program Are in Place but Could Be Strengthened




                                                         Page 26
Internal Controls for the Volunteer Income Tax Assistance Grant
        Program Are in Place but Could Be Strengthened




                                                         Page 27
Internal Controls for the Volunteer Income Tax Assistance Grant
        Program Are in Place but Could Be Strengthened




                                                         Page 28
